 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NEW YORK CLAIMED UNALLOWABLE
ROOM-AND-BOARD COSTS UNDER ITS
  DEVELOPMENTAL DISABILITIES
       WAIVER PROGRAM

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                        May 2014
                                                      A-02-12-01031
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 New York claimed approximately $60.8 million in Federal Medicaid reimbursement for
 unallowable room-and-board costs over a 3-year period.

WHY WE DID THIS REVIEW

Medicaid does not generally cover room-and-board costs incurred by community residential
facilities under a State’s home and community-based services (HCBS) Medicaid waiver
program. During an Office of Inspector General review of payment rates for residential
habilitation services provided under a New York State (New York) developmental disabilities
waiver program (a Medicaid HCBS waiver program), we observed that New York may be
claiming such costs.

The objective of this review was to determine whether New York claimed Medicaid
reimbursement for unallowable room-and-board costs for residential habilitation services
provided at State-operated residences under its developmental disabilities waiver program.

BACKGROUND

Section 1915(c) of the Social Security Act (the Act) authorizes Medicaid HCBS waiver
programs. A State’s HCBS waiver program must be approved by the Centers for Medicare
& Medicaid Services and allows a State to claim Federal reimbursement for services not usually
covered by Medicaid.

In New York, the Department of Health (DOH) administers the Medicaid program. Under a
memorandum of understanding with DOH, the Office for People With Developmental
Disabilities (OPWDD) administers New York’s developmental disabilities HCBS waiver
program, which covers a variety of services, including residential habilitation services tailored to
assist individuals in acquiring and retaining skills related to living in the community. These
services are provided in both State-operated and privately operated residences.

OPWDD establishes payment rates for waiver services, including residential habilitation services
provided at State-operated residences, which are reimbursed using statewide rates. Section
1915(c) of the Act allows for payment of the cost of HCBS that are provided to individuals in
need of the services. Certain room-and-board costs are not allowable under such a waiver.

HOW WE CONDUCTED THIS REVIEW

We reviewed the costs included in OPWDD’s calculation of Medicaid payment rates for
residential habilitation services provided at State-operated residences during State fiscal years
(SFYs) 2009 through 2011.




Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                          i
WHAT WE FOUND

DOH claimed Federal Medicaid reimbursement for unallowable room-and-board costs for
residential habilitation services provided at State-operated residences under New York’s
developmental disabilities waiver program. Specifically, certain unallowable room-and-board
costs, such as repairs, maintenance, utilities, and property-related costs, were included in the
indirect costs used to calculate the residential habilitation services payment rates. As a result,
DOH claimed $60,763,536 (Federal share) in unallowable Medicaid reimbursement.

WHAT WE RECOMMEND

We recommend that DOH:

   •   refund $60,763,536 to the Federal Government and

   •   ensure that OPWDD excludes all unallowable room-and-board costs from indirect costs
       used in payment rate calculations for residential habilitation services.

                      DEPARTMENT OF HEALTH COMMENTS AND
                                OUR RESPONSE

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our second
recommendation. Specifically, DOH stated that it was reasonable for DOH to conclude that its
rate-setting methodology in place since 1998 complied with the Federal requirement to exclude
room-and-board costs from waiver services. Nonetheless, DOH indicated that, out of an
abundance of caution, it revised its rate-setting methodology to exclude the “disputed costs” as
of October 1, 2010, following a Departmental Appeals Board decision.

After reviewing DOH’s comments, we maintain that our finding and recommendations are valid.
DOH’s rate-setting methodology did not comply with the Federal requirement to exclude room-
and-board costs. These costs should not have been included in the methodology. Therefore, we
continue to recommend that DOH refund the disputed costs to the Federal Government and
ensure that OPWDD excludes all unallowable room-and-board costs from its payment rate
calculations.




Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                           ii
                                                     TABLE OF CONTENTS

INTRODUCTION..........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicaid Program ...........................................................................................1
                 New York’s Office for People With Developmental Disabilities Waiver
                   Program ................................................................................................................2
                 Residential Habilitation Services Covered Under the Waiver Program ..................2
                 Methodology for Setting Payment Rates for Residential Habilitation
                   Services .................................................................................................................2

           How We Conducted This Review........................................................................................3

FINDING ........................................................................................................................................3

           The Department of Health Claimed Unallowable Room-and-Board Costs
            for Residential Habilitation Services Provided at State-Operated Residences .................3

RECOMMENDATIONS...............................................................................................................4

DEPARTMENT OF HEALTH COMMENTS ...........................................................................4

OFFICE OF INSPECTOR GENERAL RESPONSE.................................................................5

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................6

           B: OIG Recalculation of the Indirect Rate Component of the Medicaid Monthly
               Payment Rates per Individual .....................................................................................8

           C: Unallowable Room-and-Board Costs ............................................................................9

           D: Department of Health Comments ................................................................................10




Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                                                       iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

Medicaid does not generally cover room-and-board costs incurred by community residential
facilities under a State’s home and community-based services (HCBS) Medicaid waiver
program. During an Office of Inspector General (OIG) review of payment rates for residential
habilitation services provided under a New York State (New York) developmental disabilities
waiver program (a Medicaid HCBS waiver program), we observed that New York may be
claiming such costs. 1

OBJECTIVE

Our objective was to determine whether New York claimed Medicaid reimbursement for
unallowable room-and-board costs for residential habilitation services provided at State-operated
residences under its developmental disabilities waiver program.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low income individuals and individuals
with disabilities (Title XIX of the Social Security Act (the Act)). The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

A State may obtain a waiver that allows it to furnish an array of services to Medicaid
beneficiaries so that they can live in the community and avoid institutionalization (section
1915(c) of the Act). Certain room-and-board 2 costs are not allowable under such a waiver
(42 CFR § 441.310(a)(2)). 3




1
 Medicaid Rates for Residential Habilitation Services Provided at New York State-Operated Residences Are
Excessive (A-02-13-01008), issued March 11, 2014.
2
  CMS’s State Medicaid Manual § 4442.3.B.12 defines “room” as hotel or shelter-type expenses, including all
property-related costs (e.g., such as rental or purchase of real estate and furnishings, maintenance, utilities, and
related administrative services) and defines “board” as three meals a day or any other full nutritional regimen.

3
 The cost of room and board is allowable as part of respite care services in a facility approved by the State that is
not a private residence or for waivers that allow personal caregivers as providers of approved waiver services.


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                              1
New York’s Office for People With Developmental Disabilities Waiver Program

In New York, the Department of Health (DOH) administers the Medicaid program. Under a
memorandum of understanding with DOH, the Office for People With Developmental
Disabilities (OPWDD) provides HCBS to individuals with developmental disabilities under a
1915(c) waiver (waiver program). 4 The waiver program has been in operation since State fiscal
year 5 (SFY) 1992, and on September 24, 2009, CMS approved the waiver for a 5-year renewal
period, through September 30, 2014. DOH’s approved waiver program agreement states that
“payment is not made for the cost of room and board, including the cost of building maintenance,
upkeep, and improvement.” 6

Residential Habilitation Services Covered Under the Waiver Program

New York’s waiver program covers a variety of services, including residential habilitation
services tailored to assist individuals in acquiring and retaining skills related to living in the
community. 7 Residential habilitation services are provided in State-operated and privately
operated residences.

Residential habilitation services are provided and reimbursed at two levels of care—supervised
and supportive. For the supervised level of care, provider staff are onsite or available at all times
when individuals enrolled in the program are present. For the supportive level of care, provider
staff are generally not onsite or available at all times. The unit of service for both supervised and
supportive residential habilitation services is a calendar month, which may be billed as a full
month or a half month.

In SFYs 2009 through 2011, DOH claimed approximately $5.3 billion ($2.6 billion Federal
share) for residential habilitation services provided at State-operated residences.

Methodology for Setting Payment Rates for Residential Habilitation Services

The methodologies for setting the payment rates for all waiver services, including residential
habilitation services, are approved by CMS as part of its waiver-approval process. Using these
CMS-approved methodologies, OPWDD establishes payment rates for waiver services. The
monthly payment rates for residential habilitation services comprise three components—the

4
 The waiver program is formally known as the New York State Office of Mental Retardation and Developmental
Disabilities waiver program. However, in July 2010, the Office of Mental Retardation and Developmental
Disabilities was renamed the Office for People With Developmental Disabilities.
5
    New York’s State fiscal year is April 1 through March 31.
6
    OPWDD waiver program agreement, page 56.
7
  Other services offered under the waiver program include day habilitation (assistance with improvement in self-
help, socialization, and adaptive skills in a nonresidential setting); supported employment (support to perform in a
paid work setting); prevocational services; respite services (short periods of rest or relief for a caregiver); adaptive
technologies; assistive technology; plan of care support services; family education and training; consolidated
supports and services; and community transition supports and services.



Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                                 2
direct staff service rate, the clinical staff service rate, and the indirect rate. 8

The direct staff service rate is based on the costs of salaries and fringe benefits for developmental
aides, treatment team leaders, nursing staff, and program administration. The clinical staff
service rate is based on the costs of salaries and fringe benefits for clinical physicians, dieticians,
habilitation specialists, therapists, and speech language pathologists. The indirect rate is based
on the average indirect costs per individual. 9 Room-and-board costs, such as repairs,
maintenance, utilities, and property-related costs, are considered indirect costs; 10 however, these
costs are excluded from Federal Medicaid reimbursement.

HOW WE CONDUCTED THIS REVIEW

We reviewed the costs included in OPWDD’s calculation of the Medicaid monthly payment
rates for residential habilitation services provided at State-operated residences during SFYs 2009
through 2011. We identified unallowable room-and-board costs that were included in the
indirect rate component of the payment rates for supervised and supportive residential
habilitation services. We then recalculated the indirect rate component of the monthly payment
rates with the unallowable room-and-board costs excluded. We applied the adjusted payment
rates to claims for residential habilitation services in State-operated residences during the period
April 1, 2008, through September 30, 2010. 11

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                         FINDING

THE DEPARTMENT OF HEALTH CLAIMED UNALLOWABLE ROOM-AND-BOARD
COSTS FOR RESIDENTIAL HABILITATION SERVICES PROVIDED AT STATE-
OPERATED RESIDENCES

Section 1915(c) of the Act allows payment for the cost of HCBS under a State’s waiver program.
Federal regulations (42 CFR § 441.310(a)(2)) state that Federal financial participation for HCBS

8
 Payment rates are developed using cost data from a base year (SFY 1990 for indirect costs and SFY 1991 for staff
service costs) that are adjusted each year (“trended forward to the current year”).
9
    The indirect costs are derived by subtracting direct and clinical staff costs from total residential habilitation costs.
10
     Other indirect costs include costs associated with other New York agencies.
11
  DOH officials stated that, beginning October 1, 2010, DOH no longer billed for services using a rate that included
room-and-board costs. Although we did not audit all of DOH’s indirect costs, we noted that as of October 1, 2010,
these costs no longer appeared in DOH’s descriptions of its indirect rate component.


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                                     3
is not available for the cost of room and board. DOH’s approved waiver program agreement
states that “payment is not made for the cost of room and board, including the cost of building
maintenance, upkeep, and improvement.”

DOH claimed Federal Medicaid reimbursement for unallowable room-and-board costs for
residential habilitation services provided at State-operated residences under New York’s
developmental disabilities waiver program. Specifically, certain unallowable room-and-board
costs, such as repairs, maintenance, utilities, and property-related costs, were included in the
indirect costs used to calculate the residential habilitation services payment rates.

According to DOH officials, DOH began including certain room-and-board costs in the payment
rates following an SFY 1998 OPWDD analysis of the percentage of floor space used to provide
residential habilitation services. On the basis of its analysis, OPWDD determined that kitchen,
bathroom, and bedroom areas accounted for 41.95 percent of residences’ square footage.
OPWDD classified the remaining 58.05 percent as the “non-room and board percentage” of the
residences’ square footage. On the basis of this determination, in SFY 1999, OPWDD began
allocating 58.05 percent of costs for repairs, maintenance, utilities, and property and 60 percent
of telephone costs 12 to the indirect rate component of the payment rate calculation, using cost
data from SFY 1995 cost reports. OPWDD included these unallowable room-and-board costs as
“additional residential habilitation costs” in the indirect rate component of the Medicaid monthly
payment rate calculation.

As a result of including the “additional residential habilitation costs” in the indirect rate
component of the monthly payment rates, DOH claimed $121,527,072 ($60,763,536 Federal
share) for unallowable room-and-board costs during SFYs 2009 through 2011.

Appendix B contains our recalculation of the indirect rate component of the Medicaid monthly
rates for supervised and supportive residential habilitation services, and Appendix C contains
details of the unallowable room-and-board costs by SFY.

                                           RECOMMENDATIONS

We recommend that the DOH:

       •   refund $60,763,536 to the Federal Government and

       •   ensure that OPWDD excludes all unallowable room-and-board costs from indirect costs
           used in payment rate calculations for residential habilitation services.

                               DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our second
recommendation. Specifically, DOH stated that it was reasonable for DOH to conclude that its
rate-setting methodology in place since 1998 complied with the Federal requirement to exclude
12
     We did not audit DOH’s telephone cost allocations.


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                         4
room-and-board costs from waiver services. Nonetheless, DOH indicated that, out of an
abundance of caution, it revised its rate-setting methodology to exclude the “disputed costs” as
of October 1, 2010, following a Departmental Appeals Board decision. 13

DOH’s comments are included in their entirety as Appendix D.

                          OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing DOH’s comments, we maintain that our finding and recommendations are valid.
DOH’s rate-setting methodology did not comply with the Federal requirement to exclude room-
and-board costs. These costs should not have been included in the methodology. 14 Therefore,
we continue to recommend that DOH refund the disputed costs to the Federal Government and
ensure that OPWDD excludes all unallowable room-and-board costs from its payment rate
calculations.




13
     Pennsylvania Department of Public Welfare, DAB No. 2152 (2008).
14
  In upholding the DAB decision cited by DOH, the United States Court of Appeals, Third Circuit, stated that
“… the plain meaning of the statute leaves no doubt that the [room-and-board] costs at issue … were meant to be
excluded from reimbursement” (Commonwealth of Pennsylvania, Department of Public Welfare v. U.S. Department
of Health and Human Services, 3rd Cir., No. 10-2409, June 13, 2011).


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                    5
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the costs included in the Medicaid payment rate methodology for residential
habilitation services under the OPWDD program provided at State-operated residences during
SFYs 2009 to 2011. For this period, Medicaid payments for State-operated residential
habilitation services totaled $5,256,475,671 ($2,626,533,668 Federal share).

Our review enabled us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the Medicaid Management Information file for our audit period, but we did
not assess the completeness of the file.

We did not review the overall internal control structure of DOH, OPWDD, or the New York
Medicaid program. Rather, we reviewed only those controls related to our objective. We did not
verify the accuracy of the indirect costs information provided by DOH.

We performed fieldwork at CMS’s, DOH’s, and OPWDD’s offices in Albany, New York, and at
the CMS Regional Office (Region II) in New York, New York, from July through December
2012.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws and regulations;

   •   held discussions with CMS officials to gain an understanding of CMS’s waiver approval
       process, including the rate-methodology review process;

   •   reviewed New York’s CMS-approved waiver program agreement;

   •   held discussions with DOH and OPWDD officials to gain an understanding of OPWDD’s
       rate-setting methodology for residential habilitation services under the waiver program
       and the way in which OPWDD determined the cost of waiver services in the residential
       setting and segregated them from unallowable waiver costs (including room and board);

   •   obtained from DOH’s Medicaid Management Information System all payments for
       residential habilitation services provided at State-operated residences during SFYs 2009
       through 2011;

   •   identified unallowable room-and-board costs that were added as “additional residential
       habilitation costs” to the indirect rate component of the residential habilitation services
       payment rates;




Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                           6
                                                                                     APPENDIX A


   •   recalculated the indirect rate component of the monthly residential habilitation payment
       rates with the unallowable room-and-board costs excluded;

   •   applied the adjusted payment rates to claims for residential habilitation services in State-
       operated residences during the period April 1, 2008 through September 30, 2010;

   •   determined the amount of Federal reimbursement claimed for unallowable room-and-
       board costs; and

   •   discussed our audit results with DOH and OPWDD officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                            7
APPENDIX B: OIG RECALCULATION OF THE INDIRECT RATE COMPONENT OF
      THE MEDICAID MONTHLY PAYMENT RATES PER INDIVIDUAL

                    Table 1: Unallowable Room-and-Board Costs per Claim for
                            Supervised Residential Habilitation Services

                                                                           SFY 2009 SFY 2010              SFY 2011
                             15
OPWDD Indirect Rate                                                          $5,001   $5,557                $6,124
Total Indirect Costs per Individual (Annual)                                 40,286   40,162                40,219
 Less Unallowable Room-and-Board Costs                                       (5,234)  (5,288)               (5,150)
OIG Revised Indirect Costs per Individual (Annual)                           35,052   34,874                35,069
OIG Revised Indirect Costs per Individual 16 (Monthly)                        3,081    3,062                 3,048
Health Care Enhancement 17                                                    1,464    2,031                 2,633
OIG Recalculated Indirect Rate                                                4,545    5,093                 5,681
 Total Unallowable Room-and-Board Costs per Claim                              $456     $464                  $443

                    Table 2: Unallowable Room-and-Board Costs per Claim for
                            Supportive Residential Habilitation Services

                                                                          SFY 2009 SFY 2010 SFY 2011
OPWDD Indirect Rate                                                         $3,839   $4,407   $5,283
Total Indirect Costs per Individual (Annual)                                39,965   41,116   41,996
 Less Unallowable Room-and-Board Costs                                      (5,176)  (5,288)  (5,288)
OIG Revised Indirect Costs per Individual (Annual)                          34,789   35,828   36,708
OIG Revised Indirect Costs per Individual 18 (Monthly)                       2,957    3,046    3,591
Health Care Enhancement13                                                      442      912    1,175
OIG Recalculated Indirect Rate                                               3,399    3,958    4,766
 Total Unallowable Room-and-Board Costs per Claim                             $440     $449    $517




15
  OPWDD indirect rates information was extracted from New York’s residential habilitation rate sheets for
SFYs 2009 through 2011.
16
  We determined this amount by dividing our revised annual indirect costs per individual by a utilization factor (the
number of days utilized per year, per person), then multiplying by 365 days, and then dividing by 12 months. The
utilization factor is 346, 346.4, and 350 for SFYs 2009, 2010, and 2011, respectively.
17
  These costs represented additional employee health care benefits included in the rate provided by OPWDD. We
did not adjust these costs.
18
  We determined this amount by dividing our revised annual indirect costs per individual by a utilization factor (the
number of days utilized per year, per person), and then multiplying by 365 days and dividing by 12 months. The
utilization factor is 357.81, 357.81, and 310.93 for SFYs 2009, 2010, and 2011 respectively.


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                          8
               APPENDIX C: UNALLOWABLE ROOM-AND-BOARD COSTS

                        Table 3: Total Unallowable Room-and-Board Costs

                                                                                    Federal Share of
                                         Total Unallowable Room-                 Unallowable Room-and-
       State Fiscal Year                and-Board Costs Claimed 19                Board Costs Claimed
             2009                               $46,652,845                            $23,326,423
             2010                                47,985,110                             23,992,555
             2011                                26,889,117                             13,444,558
             Total                             $121,527,072                            $60,763,536




19
  Unallowable amounts were calculated by applying the adjusted payment rates to claims submitted by DOH for
residential habilitation services in State-operated residences in SFYs 2009 through 2011. Claims data were obtained
from the DOH’s Medicaid Management Information System.


Room-and-Board Costs in New York’s Medicaid Waiver Program (A-02-12-01031)                                        9
                    APPENDIX D: DEPARTMENT OF HEALTH COMMENTS 





            ================~~ ~~~!~~~K l~================= 

             Nirav R. Shah, M .D., M.P.H. 	
             Commissioner 	
                                                   HEALTH                                                 Sue Kelly
                                                                                       Executive Deputy Commissioner




                                                                   February 10, 2014




            Mr. James P. Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services- Region II
            Jacob Javitz Federal Building
            26 Federal Plaza
            New York, New York 10278

                                                                   Ref No: A-02-12-01031

            Dear Mr. Edert:

                  Enclosed are the New York State Department of Health ' s comments on the U.S.
            Department of Health and Human Services, Office oflnspector General ' s Draft Audit Report
            A-02-12-01031 entitled, "New York Claimed Unallowable Room-and-Board Costs Under its
            Developmental Disabilities Wai ver Program ."

                     Thank you for the opportunity to comment.

                                                                   Sincerely,




                                                                   Michael J. Nazarko
                                                                   Deputy Commissioner
                                                                    fo r Administration
            enclosure

            cc: 	    Jaso n Helgerson
                     James C. Cox
                     Diane Christensen
                     Lori Conway
                     Vincent Sleasman
                     Robert Loftus
                     Joan Kewley
                     Ronald Farrell
                     Brian Kiernan
                     Elizabeth Misa
                     OHIP Audit BML

                                                     HEALTH.NY.GOV
                                                     facebook.com/NYSOO H
                                                    twltter.com/He althNYGov




Room-and-Board Costs in New York's Medicaid Waiver Program (A-02-12-01031) 	                                           10
                                  NYS Department of Health 

                                        Comments on the 

                         US Department of Health and Human Services 

                                  Office of Inspector General 

                           Draft Audit Report A-02-12-01031 Entitled 

                       New York Claimed Unallowable Room-and-Board 

                       Costs Under its Developmental Disabilities Program 


            T he fo llowin g are the New York State Department of Health ' s (Department) comments in
            respo nse to the U.S. Department of Health and Human Services, Office oflnspector General' s
            (OIG) draft audit report A-02-12-01031 entitled, "New York Claimed U nallowable Room-and­
            Board Costs U nder its Developmental Disabilities Program."

            Recommendation # l :

            The Depart ment ofHealth and Human Services, Office oflnspector General found that for State
            Fiscal Years 2009-2011 , incl uded in the state' s residential habi litation rates were unallowable
            room and board costs of $60,763,536 (federal funds) which need to be refunded to the Federal
            Government.

            Response #l:

            The Department ofHealth (the Department) disagrees with the Department ofHealth and Human
            Services, Office of Inspector General' s recommendation that the Department owes the Federal
            Government $60,763 ,536. It was reasonable for the Department to conclude that t he
            methodology in place since 1998 complied with the requirement to exclude " room" and " board"
            costs from waiver services. Nonethe less, out of an abundance of caution following
            Developmental Appeals Board Decision #2 152 (Pennsylvania), the Department determined to
            revise its reimbursement rate. The revi sed rate went into effect on October 1, 2010.

            Recommendation #2:

            Ensure that the Office for People w ith Developmental Di sabilities excludes all unallowable
            room-and-board costs from indirect costs used in payment rate calculations for residential
            habilitation services.

            Response #2:

            The Department agrees that unallowable room and board costs must be excluded from the rate
            for waiver services. AJthough the Department believes that its prior methodology was a
            reasonable application of the prohibition, it has already modified it to exclude the disputed costs
            as ofOctober 1, 2010.




Room-and-Board Costs in New York's Medicaid Waiver Program (A-02-12-01031)                                        11
